                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 113060034                                                                        Page 1 of 1



         OIG received an anonymous complaint alleging that the Subject 1 misused NSF funds. 2 Our
         initial analysis of this complaint determined that the Subject is associated with individuals
         identified in the course of a currently ongoing investigation3 in this office. It was determined that
         the allegation relating to the Subject should be examined as part of the currently ongoing
         investigation. All information concerning the Subject has been copied and incorporated into that
         ongoing investigation.

         Accordingly, this case is closed.




         I
         2




NSF OIG Form 2 (11102)
